                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 110120058                                                                     Page 1 of 1



         The DIG initiated an investigation based on information from an institution! that a former
         NSF Intergovernmental Personnel Act (IPA) Assignee2 failed to pay $160 to the institution for
         lodging costs during a site review in August 2009.

         The institution subsequently reported they received a $160 check from the individual after the
         initiation of the DIG investigation.

         Accordingly, this case is closed.




NSF ora Form 2 (11/02)
